HHS/OIG, Audit -Management of HIV/AIDS Prevention Grants by the Centers for Disease Control and
Prevention,(A-04-03-08011)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
Management of HIV/AIDS Prevention Grants by the Centers for Disease Control and Prevention, (A-04-03-08011)
September 8, 2005
Complete
Text of Report is available in PDF format (1.19 mb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our audit was to determine whether CDC had complied with applicable
laws, regulations, and departmental policies in managing its HIV/AIDS prevention grants.  During
fiscal years 1999 through 2003, CDCs management of HIV/AIDS prevention grants did not always comply.
These conditions existed because the guidance CDC management provided to its employees in the CDC
Assistance Management Manual was not always consistent with relevant laws, regulations and departmental
policies.  Subsequent to our fieldwork, CDC officials rescinded its interim approval of this manual.  We
recommended that CDC continue to monitor its grants management operations to ensure full compliance
with relevant laws, regulations, and departmental policies.  In response to our report, CDC concurred
with our recommendation, but pointed out that competing priorities and limited resources made it difficult
to better document all facets of its operations.